                                                                                                 I
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL                   I
                                                    OFFICE OF INVESTIGATIONS                         I



                                              CLOSEOUT MEMORANDUM
                                                                                                         i

Case Number: I01100024                                                                       Page 1 of 1




         A Hotline call into thk OIG from a former employee1at the universig alleged misuse of grant
         funds and conversiog of NSF equipment for private use. The caller alleged that a university
         employee3was perfohing work for private companies and covering the cost of stock materials
         by over charging NSF! grants. It was also alleged that this individual had been obtaining,
         government surplus dachinery through the use of NSF grants and then taking the machinery
         home for his personaliuse.
                               li


         An investigation was conducted that included requesting and reviewing financial records from
         the university, interviews of the complainant, witnesses, university officials and the subject and
         the issuance of a subpbena4 seeking copies of specific corporate tax records. This subpoena was
         challenged and subsequently upheld by the Federal Court in the Central District of ~llinois.~
                                    li


         Based on the information identified during this investigation and the lack of any credible ,
         information to supportithe allegations made by the complainant it is our conclusion that no
         further action is warranted.

         Accordingly, this case is closed.




                                         I

NSF OIG Form 2 (11/02)                   11
